   April 21, 2005




Defense Infrastructure

TRICARE Management Activity Data
Call Submissions and Internal Control
Processes for Base Realignment and
Closure 2005
(D-2005-052)




             Department of Defense
            Office of Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, contact the Secondary reports
  Distribution Unit, Audit Followup and Technical Support at (703) 604-8937
  (DSN 664-8937 or fax (703) 604-8932.

  Suggestions for Audits

  To suggest ideas for or to request audits, contact Audit Followup and Technical
  Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932. Ideas and
  requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

BRAC                  Base Realignment and Closure
COBRA                 Cost of Base Realignment Actions
DA&M                  Director, Administration and Management
DoD OIG               Department of Defense Office of Inspector General
DWO                   Defense-Wide Organization
H&SA                  Headquarters and Support Activities
ICP                   Internal Control Plan
JCSG                  Joint Cross Service Group
JPAT 7                Joint Process Action Team Criterion Number 7
N/A                   Not Applicable
OSD                   Office of the Secretary of Defense
TMA                   TRICARE Management Activity
                Department of Defense Office of Inspector General
Report No. D-2005-052                                                   April 21, 2005
 (Project no. D2004-D000LF-0100.000)

                  TRICARE Management Activity Data Call
                  Submissions and Internal Control Processes
                    for Base Realignment and Closure 2005

                                  Executive Summary

Who Should Read This Report and Why? Office of the Secretary of Defense
personnel responsible for deciding the realignment or closure of military installations
based on the Base Realignment and Closure (BRAC) data calls, and TRICARE
Management Activity management personnel should read this report. The report
discusses the adequacy, completeness, and integrity of the data provided by TRICARE
Management Activity to assist the Secretary of Defense in BRAC 2005
recommendations.

Background. BRAC 2005 is the formal process outlined in Public Law 101-510,
“Defense Base Closure and Realignment Act of 1990,” as amended, under which the
Secretary of Defense may realign or close military installations inside the United States
and its territories. As part of BRAC 2005, the Under Secretary of Defense for
Acquisition, Technology, and Logistics issued “Transformation Through Base
Realignment and Closure (BRAC 2005) Policy Memorandum One—Policy,
Responsibilities, and Procedures,” April 16, 2003, that stated the Department of Defense
Office of Inspector General would review the accuracy of BRAC data and the
certification process.

The BRAC 2005 process established procedures to provide a fair process for base
closures and realignments in the United States and its territories and was divided into the
following data calls—capacity analysis, supplemental capacity, military value, Cost of
Base Realignment Actions, Joint Process Action Team Criterion Number 7, and scenario
specific. The supplemental capacity, military value, Cost of Base Realignment Actions,
and Joint Process Action Team Criterion Number 7 data calls are collectively known as
the second data call. This report summarizes issues related to the TRICARE
Management Activity Base Realignment and Closure 2005 process as of February 9,
2005.

The TRICARE Management Activity is a field activity of the Under Secretary of Defense
for Personnel and Readiness and has offices located in Aurora, Colorado, and Falls
Church, Virginia. The TRICARE Management Activity manages the TRICARE health
care program for active duty members, their families, and others entitled to DoD health
care under the authority of the Assistant Secretary of Defense (Health Affairs).

Results. We evaluated the validity, integrity, and supporting documentation of BRAC
2005 data and the TRICARE Management Activity’s compliance with applicable internal
control plans for the capacity analysis and second data calls for both offices. We also
evaluated a scenario specific data call for TRICARE Management Activity’s Falls
Church, Virginia, office. After corrections were made as a result of our site visits, the
TRICARE Management Activity BRAC 2005 data was generally supported, complete,
and accurate. In addition, the TRICARE Management Activity’s data collection
processes generally complied with applicable internal control plans and its internal
control plan properly incorporated and supplemented the Office of the Secretary of
Defense internal control plan. We consider the data, responses, and sources to be
generally reasonable for use in the BRAC 2005 process. Subsequent to our audit, the
JPAT 7 group requested that activities update some of their responses based on new
guidance. We did not review the updated responses or their supporting documentation.

Management Comments. We provided a draft of this report on March 23, 2005. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.




                                             ii
Table of Contents

Executive Summary                                                       i

Background                                                             1

Objectives                                                             3

Finding
     TRICARE Management Activity BRAC 2005 Data Call Submissions and
         Internal Control Processes                                     4

Appendixes
     A. Scope and Methodology                                           8
        Management Control Review                                      10
        Prior Coverage                                                 10
     B. Report Distribution                                            11
Background
          Base Realignment and Closure 2005. Public Law 101-510, “Defense Base
          Closure and Realignment Act of 1990,” as amended, establishes the procedures
          under which the Secretary of Defense may realign or close military installations
          inside the United States and its territories. The law authorizes the establishment
          of an independent Commission to review the Secretary of Defense
          recommendations for realigning and closing military installations. The Secretary
          of Defense established and chartered the Infrastructure Executive Council and the
          Infrastructure Steering Group as the Base Realignment and Closure (BRAC) 2005
          deliberative bodies responsible for leadership, direction, and guidance. The
          Secretary of Defense must submit base closure and realignment recommendations
          to the independent Commission by May 16, 2005.

          Joint Cross Service Groups. A primary objective of BRAC 2005, in addition to
          realigning base structure, is to examine and implement opportunities for greater
          joint activity. The Office of the Secretary of Defense (OSD) established seven
          Joint Cross Service Groups (JCSGs)—Education and Training, Headquarters and
          Support Activities (H&SA), Industrial, Intelligence, Medical, Supply and Storage,
          and Technical—that address issues that affect common business-oriented support
          functions; examine functions in the context of facilities; and develop closure and
          realignment recommendations based on force structure plans of the Armed Forces
          and on selection criteria. To analyze the issues, each JCSG developed data call
          questions to obtain information about the functions that it reviewed.

          Office of Inspector General Responsibility. The “Transformation Through
          Base Realignment and Closure (BRAC 2005) Policy Memorandum One—Policy,
          Responsibilities, and Procedures,” April 16, 2003, requires the Department of
          Defense Office of Inspector General (DoD OIG) to provide internal control plan
          (ICP) development and implementation advice and review the accuracy of BRAC
          data and the data certification process. In addition, the memorandum requires
          DoD OIG personnel to assist the JCSGs and DoD Components as needed. This
          report summarizes issues related to the TRICARE Management Activity (TMA)
          BRAC 2005 process.

          Defense-Wide Organizations. There are 11 Defense-wide organizations
          (DWOs).1 The OSD Director, Administration and Management (OSD DA&M)
          facilitated the integration of DWO data into the BRAC 2005 process. OSD
          DA&M was the DWOs lead for the DWO BRAC 2005 process, the collection of
          related BRAC data, and the development and forwarding of recommendations
          regarding the submission and approval of BRAC data. OSD DA&M was the
          primary data repository for all DWO data and information collections and
          requests and assembled and forwarded BRAC-related data and information.

          TMA. TMA is a field activity of the Under Secretary of Defense for Personnel
          and Readiness. TMA operates under the authority of the Assistant Secretary of
          Defense (Health Affairs) and has offices located in Aurora, Colorado, and Falls

1
    American Forces Information Service, Defense Human Resources Activity, Defense Technology Security
    Administration, DoD Education Activity, DoD OIG, Defense Prisoner of War/Missing Personnel Office,
    Joint Staff, Office of Economic Adjustment, OSD, TMA, and Washington Headquarters Services.

                                                   1
Church, Virginia. The Assistant Secretary of Defense (Health Affairs) is also the
Director of TMA. TMA’s mission is to manage the TRICARE health care
program for active duty members, their families, and others entitled to DoD health
care.

ICPs. The OSD ICP was issued in the Under Secretary of Defense for
Acquisition, Technology, and Logistics’ memorandum, “Transformation Through
Base Realignment and Closure (BRAC 2005) Policy Memorandum One-Policy,
Responsibilities, and Procedures.” Before the BRAC data calls were released to
the Services and Defense agencies, OSD required the Services, Defense agencies,
and DWOs to prepare ICPs that incorporated and supplemented the OSD ICP. To
comply with that requirement, OSD DA&M prepared, “Defense Wide
Organizations Internal Control Plan for the 2005 Base Realignment and Closure
Process,” January 15, 2004, and updated the DWO ICP on August 2, 2004. The
overall DWO ICP and 2 of its 13 appendixes applied to all 11 DWOs. Each
DWO was responsible for preparing an organization-specific appendix to
supplement the overall DWO ICP. The TMA supplement is in Appendix I of the
DWO ICP.

BRAC Data Calls. The BRAC 2005 data collection process established
procedures to provide a fair process for base closures and realignments in the
United States and its territories and was divided into the following data
calls: capacity analysis, supplemental capacity, military value, Cost of Base
Realignment Actions (COBRA), Joint Process Action Team Criterion
Number 7 (JPAT 7), and scenario specific. The supplemental capacity, military
value, COBRA, and JPAT 7 data calls are collectively known as the second data
call. The Services, Defense agencies, and DWOs used either automated data
collection tools or a manual process to collect data call responses. For the
capacity analysis data call, TMA used a manual process to collect BRAC data;
for the second data call, TMA used the Data Gathering Tool, a modified
Microsoft Access database tool developed for those not using an automated
process. Each data call had a specific purpose as follows.

       •   The capacity analysis data call gathered data on infrastructure, current
           workload, surge requirements, and maximum capacity.

       •   The supplemental capacity data call clarified inconsistent data
           gathered with the initial capacity questions.

       •   The military value data call gathered data on mission capabilities, land
           and facilities, mobilization and contingency, and cost and personnel.

       •   The COBRA data call gathered data to develop costs, savings, and
           payback (formerly known as return on investments) of proposed
           realignment and closure actions.




                                     2
                    •    The JPAT 7 data call requested data to assess the community’s ability
                         to support additional forces, missions, and personnel associated with
                         individual scenarios.2

                    •    The scenario specific data call requested information related to
                         specific closure or realignment decisions.

Objectives
           The overall objective of the audit was to evaluate the validity, integrity, and
           supporting documentation of data that TMA collected and submitted for the
           BRAC 2005 process. In addition, we evaluated whether TMA complied with the
           OSD and DWO ICPs. We also reviewed the management controls for collecting,
           documenting, submitting, and safeguarding BRAC 2005 data. This report is one
           in a series of reports on data call submissions and internal control processes for
           BRAC 2005. See Appendix A for a discussion of the scope and methodology, our
           review of management controls, and prior coverage related to the audit objectives.




2
    A description of one or more potential closure or realignment actions identified for formal analysis by
    either a JCSG or a Military Department.

                                                        3
                   TRICARE Management Activity BRAC
                   2005 Data Call Submissions and Internal
                   Control Processes
                   TMA reported BRAC 2005 data that was generally supported, complete,
                   and accurate, and the data collection processes that TMA used generally
                   complied with the applicable ICPs. After corrections were made as a
                   result of our site visits, TMA responses to the capacity analysis data call
                   were complete, reasonable, and adequately supported. TMA’s responses
                   to the second data call were generally complete, reasonable, and
                   supported, except for responses to question numbers 1405, 1406, and
                   1407, which were incomplete or partially supported. Also, responses to
                   question numbers 1907 and 1908 for Falls Church could not be verified.
                   Because TMA provided corrected capacity analysis data to the OSD
                   BRAC Office in a timely manner and there were only a small number of
                   second data call deficiencies, the deficiencies noted should not impact the
                   reliability of the TMA data for use in BRAC 2005 analysis.


TMA BRAC 2005 Data Call Submissions
           The BRAC 2005 data that TMA reported was generally supported, complete, and
           accurate. At TMA, we evaluated the validity and integrity of the documentation
           used to support responses to data call questions. Specifically, we compared
           responses with supporting documentation and reviewed “Not Applicable”(N/A)
           responses to determine whether the responses were reasonable. We did not verify
           that the responses made it into the OSD database.

           Capacity Analysis Data Call. Following our initial visit, TMA provided
           reasonable responses and adequate support for the capacity analysis data call.
           The OSD DA&M directed TMA to answer 75 of the 752 capacity analysis
           questions for its Aurora and Falls Church locations and to review the remaining
           capacity analysis questions for applicability. TMA identified and provided
           responses to two additional capacity analysis questions, for a total of
           77 responses. We evaluated the responses and support at TMA for the
           30 questions that TMA answered with something other than N/A. Initially, for
           the 30 questions: 8 responses were adequate and fully supported; 16 responses
           were wholly or partially incorrect and had to be resubmitted; and 6 responses
           could not be evaluated with the documentation provided. As a result of our initial
           site visits, TMA processed change adjudication pages3 to correct each of the
           incorrect responses and provided documentation to support the unsupported
           responses. We verified the corrections and documentation during subsequent site
           visits. In addition, we reviewed the 47 questions that TMA determined were N/A
           to either of its locations and agreed that the determinations were appropriate.


3
    A change adjudication page is used to change and document an answer requiring correction.

                                                      4
           Second Data Call. TMA generally provided reasonable responses and adequate
           supporting documents for the second data call, with a small number of exceptions.
           Of the 90 second data call questions to which it responded, TMA answered
           4 supplemental capacity and 15 military value questions from the Headquarters
           and Support Activities (H&SA) JCSG. TMA also answered 2 COBRA questions
           and 20 JPAT 7 questions. TMA responded N/A to the remaining 49 questions.
           All questions were directed to Aurora and Falls Church except two military value
           questions (19074 and 19085) and the 4 supplemental capacity questions that
           applied to Falls Church only. We evaluated the responses and support for the
           41 questions answered other than N/A and concluded that TMA had adequate and
           reasonable support for 36 responses, responses to three JPAT 7 questions (1405,
           1406, and 1407) were incomplete or partially supported for Aurora and Falls
           Church, and we were not able to verify the supporting data for two responses
           (1907 and 1908). We also reviewed the 49 questions with N/A responses for both
           locations and determined that the responses were appropriate. We conducted our
           audit of the second data call from July 13, 2004, through October 19, 2004, and
           issued a site memorandum on October 28, 2004. Subsequent to our audit, the
           JPAT 7 group requested that activities update some of their responses based on
           new guidance. We did not review the updated responses or their supporting
           documentation.

           Scenario Specific Data Call. As of February 9, 2005, TMA had received one
           scenario-specific data call. The data call requested that TMA re-verify existing
           data in the OSD BRAC database and provide additional data on the number of
           contractor personnel, weight of equipment, and unique space requirements at its
           Falls Church location. TMA provided reasonable responses and adequate
           supporting documents for this scenario-specific data call.


Internal Control Processes
           The data collection processes that TMA used generally complied with the OSD
           and DWO ICPs. We reviewed the TMA data collection process to determine
           whether TMA complied with the applicable ICPs. We reviewed whether TMA
           personnel completed nondisclosure agreements and properly collected, marked,
           safeguarded, and maintained BRAC data. Specifically, we reviewed the
           completeness of BRAC documentation, ensured that BRAC information was
           secured in locked containers, and ensured that BRAC data were marked with
           “Deliberative Document - For Discussion Purposes Only - Do Not Release Under
           FOIA.” In addition, we reviewed the completeness of the DWO ICP and
           determined that the DWO ICP properly incorporated and supplemented the OSD
           ICP.

           OSD ICP. OSD defined the internal control process for BRAC 2005 in the OSD
           ICP, which provides broad internal control mechanisms designed to ensure the
           accuracy, completeness, and integrity of information used to support BRAC
4
    The question asks for number of meetings between the organization’s senior officials, including Flag
    officers, and senior officials from another organization located in the Washington, D.C. area.
5
    The question asks for the number of meetings between the organization’s senior officials, including Flag
    officers, and members of Congress or their staff.

                                                       5
actions. The OSD ICP describes broad lines of authority and responsibilities;
requires that BRAC analysis and recommendations be based on accurate,
complete, and certified data; and requires that the process be properly documented
and auditable. The OSD ICP requires any DoD Component participating in
BRAC to develop and implement an ICP to ensure the accuracy of data collection
and analysis.

DWO ICP. The DWO ICP refines the requirements established in the OSD ICP
and provides guidance on the responsibilities of the DWOs and on documentation
control mechanisms to safeguard BRAC data. The DWO ICP provides a
consistent set of management controls to ensure the accuracy, completeness, and
integrity of BRAC data and to limit the possibility of premature disclosure of
BRAC information. The documentation requirements and review and
certification procedures are in Appendix M, “Documentation Requirements for
DWO BRAC 2005 ICP Implementation,” to the DWO ICP and those procedures
apply to all DWOs. The TMA ICP is included as Appendix I of the DWO ICP.
The TMA appendix contains specific information on how BRAC documents will
be stored and on the identification and responsibilities of the trusted agent and
certifying official.

Completeness of ICPs. The DWO ICP properly incorporated and supplemented
the OSD ICP. The DWO ICP established DWO responsibilities and outlined
management control mechanisms to provide accountability and to safeguard
DWO BRAC information. In addition, the DWO ICP identified required
documentation to justify changes made to data and information after it had been
certified and sent to the OSD BRAC Office. Both the OSD and DWO ICPs
included direction on completing nondisclosure agreements and on collecting,
marking, safeguarding, and maintaining BRAC data.

Neither the OSD ICP nor the DWO ICP had a clear requirement for separation of
duties. The ICPs did not require the assignment of different personnel as the
responder, reviewer, and trusted agent. However, the TMA appendix
(Appendix I) did indicate that the director of each TMA directorate would
designate an official representative to answer questions and that the trusted agent
would compile and submit all data to the Deputy Director, TMA for certification.
Therefore, TMA had a separation of duties. Responsible staff members in Aurora
and Falls Church were the responders, the trusted agent was the reviewer and
custodian of the data, and the Deputy Director, TMA was the certifying official.

Compliance With ICPs. TMA was generally compliant with the OSD and DWO
ICP procedures for completing and maintaining nondisclosure agreements,
completing certification statements, and safeguarding BRAC data. Initially, the
TMA trusted agent had not signed the certification memorandum and responders
had not provided supporting documentation with all responses. However, TMA
corrected the deficiencies by properly signing the memorandum and providing
adequate documentation for the responses.




                                     6
Conclusion
    After corrections were made as a result of our site visits, TMA reported BRAC
    2005 data that was generally supported, complete, and accurate, and the data
    collection processes that TMA used generally complied with the ICPs. We
    discussed the incorrect and unsupported initial responses to the capacity analysis
    data call with TMA management. TMA concurred with our findings and
    submitted corrected certified responses to the OSD BRAC Office. TMA also
    provided supporting documentation for all responses. We believe that because
    TMA corrected the initial incorrect responses and provided adequate supporting
    documentation, the initial deficiencies will not adversely impact the reliability of
    the TMA BRAC 2005 data. TMA responses to the second data call and the
    scenario specific data call were generally reasonable and adequately supported,
    with a small number of exceptions. Although responses to three JPAT 7
    questions were initially incomplete, the JPAT 7 group has requested additional
    clarifying information. Also, while responses to question numbers 1907 and
    1908 were not verifiable, the questions do not appear to be critical. Therefore, we
    believe TMA responses to the second data call do not negatively impact the
    reliability of TMA BRAC 2005 data.




                                         7
Appendix A. Scope and Methodology
           We evaluated the validity, integrity, and supporting documentation of BRAC
           2005 data for TMA locations in Aurora, Colorado, and Falls Church, Virginia.
           Because the TMA trusted agent collected and maintained all BRAC data at the
           Falls Church location, our reviews were conducted at Falls Church. The
           evaluation included comparing responses with supporting documentation and
           reviewing N/A responses to determine whether the responses were reasonable.
           Questions had either an answer or an N/A response. An N/A response was for
           questions determined not to apply to either TMA location. We ensured that the
           DWO ICP incorporated and supplemented the requirements of the OSD ICP and
           evaluated TMA compliance with the ICPs. We evaluated TMA data collection
           procedures, to include reviewing the completion of nondisclosure agreements and
           the collection, marking, safeguarding, and maintenance of BRAC data. In
           addition, we interviewed the Senior Health Care Analyst who served as TMA’s
           BRAC trusted agent. The trusted agent reviewed the responses to all questions
           and prepared the packages for submission to the Deputy Director, TMA for
           certification. We did not verify that the responses made it into the OSD database.

           Capacity Analysis Data Call. A January 23, 2004, OSD DA&M memorandum
           directed DWO trusted agents to answer 75 of 752 capacity analysis data call
           questions identified as applicable to DWOs by the H&SA JCSG. OSD DA&M
           also directed the DWO trusted agents to review the rest of the questions to
           determine whether any were applicable. TMA responded to the 75 questions
           identified by OSD DA&M and 2 additional questions it tentatively identified as
           applicable to the TMA locations in Aurora and Falls Church. Of the 77 questions,
           we reviewed responses and supporting documentation for the 30 questions with
           responses other than N/A. We also reviewed the 47 N/A responses for
           appropriateness. We did not review the applicability of the other 675 questions.

           Second Data Call. Because the military value questions for the second data call
           were targeted to specific organizations, TMA was required to respond to a total
           of 90 questions for the second data call. We reviewed TMA responses and
           supporting documentation for 15 military value questions and 4 supplemental
           capacity questions from the H&SA JCSG through OSD DA&M; 2 COBRA1
           questions; and 20 JPAT 72 questions. The remaining 49 questions had N/A
           responses. All questions applied to Aurora and Falls Church, except for four
           supplemental capacity and two military value questions, which applied to Falls
           Church only. We also reviewed the 49 N/A responses for appropriateness. The
           following table shows the capacity analysis and second data call responses we
           reviewed.




1
    COBRA questions were to be answered by stand-alone or host activities, which included leased facilities.
2
    JPAT 7 questions were to be answered by stand-alone or host activities, which included leased facilities.

                                                        8
          Capacity Analysis and Second Data Call Responses Reviewed

                                         Question Number
 Type of Question           Answered                     Not Applicable
Capacity Analysis 311, 314, 317 to 319, 321,      313, 315, 316, 320, 323, 324,
                  322, 325, 327 to329, 347,       326, 330, 348, 349, 351-353,
                  350, 354, 356, 358, 364, 371, 355, 357, 359-363, 365-370,
                  376, 385 to387, 393, 446,       372-375, 377-384, 388, 447,
                  462, 464, 466, 471, 582, and    448, 461, 468, 478, and 480-
                  701                             482
H&SA JCSG         1904, 1907 through 1912,        1905, 1913 through 1917,
Military Value    1918, 1919, 1921, 1927,         1925 and 1949.
                  1947, 1950, 1953, and 1957
H&SA JCSG         4099 and 4101 through 4103      4069 through 4098, 4100,
Supplemental                                      4104, and 4105
Capacity
COBRA             1501 and 1505                   1500, 1502, 1503, 1504,
                                                  1506, and 1507
JPAT 7            1400 through 1417, 1420, and 1418 and 1419
                  1421*

* JPAT 7 question numbers 1418 and 1419 were withdrawn and replaced with question numbers
  1420 and 1421.

We issued two site memorandums to summarize the results of our reviews of
TMA’s responses to the 77 capacity data call questions and the 90 second data
call questions. However, for the second data call, we did not verify the accuracy
of supporting documentation for the responses to H&SA JCSG military value
question numbers 1907 and 1908 because the DoD OIG determined that the
responses were supported by documentation, such as personal appointment
calendars, that could not be verified. Further, subsequent to our audit, the
JPAT 7 group requested that activities update some of their responses based on
new guidance. We did not review the updated responses or their supporting
documentation.

Scenario Specific Data Call. TMA had responded to one scenario-specific data
call as of February 9, 2005, involving its Falls Church location. We reviewed the
response and supporting documentation and discussed the results of our review
with the TMA trusted agent.

We performed this audit from February 2004 through February 2005 in
accordance with generally accepted government auditing standards.



Use of Computer-Processed Data. We did not test the accuracy of the
computer-processed data used to support answers to data call questions because of
time constraints. Potential inaccuracies in the data could impact the results

                                        9
      However, the Deputy Director, TMA certified the BRAC data as being accurate
      and complete to the best of his knowledge and belief. We did not review the data
      collection tools used (Microsoft Word and the Data Gathering Tool).

      Government Accountability Office High-Risk Area. The Government
      Accountability Office has identified several high-risk areas in DoD. This report
      provides coverage of the Managing Federal Real Property and DoD Support
      Infrastructure Management high-risk areas.


Management Control Review
      We evaluated the TMA management controls for preparing, submitting,
      documenting, and safeguarding information associated with the BRAC 2005 data
      calls, as directed by the applicable ICPs. Specifically, we reviewed procedures
      that TMA used to develop, submit, and document data call responses. In addition,
      we reviewed the controls implemented to prevent the premature disclosure of
      BRAC data. Management controls were adequate as they applied to the audit
      objective. (See the finding section for additional details). We did not review the
      overall TMA management control program because its provisions were not
      deemed applicable to the one-time data collection process.

Prior Coverage
The following DoD OIG site memorandums have been issued related to TMA BRAC
2005.
DoD OIG

Site Memorandums
      DoD IG Memorandum, “Audit on the Second Data Call Submission from
      TRICARE Management Activity for Base Realignment and Closure 2005,”
      October 28, 2004

      DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
      from TRICARE Management Activity for Base Realignment and Closure 2005,”
      May 19, 2004




                                          10
Appendix B. Report Distribution

Office of the Secretary of Defense
Director, Base Realignment and Closure (Installations and Environment)

Other Defense Organizations
Director, TRICARE Management Activity

Non-Defense Federal Organizations
Government Accountability Office*




*
 Only Government Accountability Office personnel involved in the BRAC process are to receive the
report.




                                                 11
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Logistics Support prepared this report. Personnel of the Department of
Defense Office of the Inspector General who contributed to the report are listed below.

Robert F. Prinzbach II
Michael A. Joseph
James A. O’Connell
Robert T. Briggs
Mary Gibson
William Lanyi
Michael Nova
